APPENDIX TABLE OF CONTENTS
OPINIONS AND ORDERS
Opinion of the Court of Criminal Appeals, State
of Oklahoma (March 18, 2021) ................................. 1a
District Court of Mcintosh County, State of Oklahoma, Journal Entry of Facts and Conclusions of
Law in Accordance with Order Remanding for
Evidentiary Hearing (September 24, 2020) .......... 11a
Agreed Stipulation
(September 23, 2020)........................................ 15a
Order of the Court of Criminal Appeals, State of
Oklahoma, Remanding for Evidentiary Hearing
(August 19, 2020) .................................................... 17a

App.1a
OPINION OF THE COURT OF CRIMINAL
APPEALS, STATE OF OKLAHOMA
(MARCH 18, 2021)
IN THE COURT OF CRIMINAL APPEALS
OF THE STATE OF OKLAHOMA
________________________
CHRISTOPHER JASON HATHCOAT,

Appellant,
v.
THE STATE OF OKLAHOMA,

Appellee.
________________________
NOT FOR PUBLICATION
Case No. F-2018-898
Before: Dana KUEHN, President Judge.,
Scott ROWLAND, Vice President Judge.,
Gary L. LUMPKIN, Judge., David B. LEWIS, Judge.,
Robert L. HUDSON, Judge.
ROWLAND, VICE PRESIDING JUDGE:
Appellant Christopher Jason Hathcoat was tried
by jury and convicted of First Degree Murder in the
District Court of McIntosh County, Case No. CF2016-207. In accordance with the jury’s verdict, the
Honorable James R. Pratt sentenced Hathcoat to life
imprisonment with the possibility of parole. Hathcoat
must serve 85% of his sentence before he is eligible

App.2a
for parole consideration. Hathcoat appeals his Judgment and Sentence and raises the following issues:
(1) whether the district court erred by instructing
the jury that evidence of his defense was
insufficient as a matter law;
(2) whether the district court erred by failing to
instruct the jury on the lesser offense of
accessory;
(3) whether prosecutorial misconduct deprived
him of a fair trial;
(4) whether the State of Oklahoma had jurisdiction to prosecute him;
(5) whether he received effective assistance of
counsel; and
(6) whether an accumulation of errors deprived
him of a fair trial.
We find relief is required on Hathcoat’s jurisdictional challenge in Proposition 4, rendering his other
claims moot. Hathcoat claims the State of Oklahoma
did not have jurisdiction to prosecute him. He relies
on 18 U.S.C. § 1153 and McGirt v. Oklahoma, 591 U.S.
___, 140 S. Ct. 2452 (2020).
On August 19, 2020, this Court remanded this
case to the District Court of McIntosh County for an
evidentiary hearing. The District Court was directed
to make findings of fact and conclusions of law on
two issues: (a) Hathcoat’s status as an Indian; and
(b) whether the crime occurred within the boundaries
of the Muscogee Creek Nation Reservation. Our
Order provided that, if the parties agreed as to what
the evidence would show with regard to the questions

App.3a
presented, the parties could enter into a written stipulation setting forth those facts, and no hearing would
be necessary.
On September 23, 2020, the parties appeared
before the Honorable Brendon Bridges for a status
conference and entered a written Agreed Stipulation
in which they agreed: (1) that Hathcoat has some
Indian blood; (2) that he was a registered citizen of
the Cherokee Nation on the date of the charged
offense; (3) that the Cherokee Nation is a federally
recognized tribe; and (4) that the charged crime
occurred within the Muscogee Creek Nation Reservation. The district court accepted the parties’
stipulation.
On November 24, 2020, the District Court filed its
Findings of Fact and Conclusions of Law. The District
Court found the facts recited above in accordance with
the stipulation. The District Court concluded that
Hathcoat is an Indian under federal law and that the
charged crimes occurred within the boundaries of
the Muscogee Creek Nation Reservation. The District
Court’s findings are supported by the record. The ruling
in McGirt governs this case and requires us to find
the District Court of McIntosh County did not have
jurisdiction to prosecute Hathcoat. Accordingly, we
grant relief on Proposition 4.

App.4a
DECISION
The Judgment and Sentence of the district court
is VACATED and the matter is REMANDED WITH
INSTRUCTIONS TO DISMISS. Pursuant to Rule
3.15, Rules of the Oklahoma Court of Criminal Appeals,
Title 22, Ch. 18, App. (2021), the MANDATE is
ORDERED to issue in twenty (20) days from the
delivery and filing of this decision.
AN APPEAL FROM THE DISTRICT COURT OF
MCINTOSH COUNTY, THE HONORABLE JAMES
R. PRATT, ASSOCIATE DISTRICT JUDGE
APPEARANCES AT TRIAL
Peter L. Scimeca
Attorney at Law
100 N. Broadway Ave.,
Suite 3300
Oklahoma City, Ok 73102
Counsel for Defendant
Brecken A. Wagner
Wagner & Lynch
109 E. Washington Ave.
McAlester, OK 74501
Counsel for Defendant
David K. Pierce
Gregory R. Stidham
Asst. District Attorneys
McIntosh County Courthouse
110 North 1st Street
P.O. Box 127
Eufaula, Ok 74432
Counsel for State

App.5a
APPEARANCES ON APPEAL
Sarah Macniven
Oklahoma Indigent Defense System
P.O. Box 926
Norman, Ok 73070
Counsel for Appellant
Mike Hunter
Attorney General of Oklahoma
Keeley L. Miller
Assistant Attorney General
313 N.E. 21st Street
Oklahoma City, Ok 73105
Counsel for Appellee
APPEARANCES ON REMAND
Carol Iski
Greg Stidham
Asst. District Attorneys
110 1st Street
Eufaula, Ok 74432
Counsel for State
Chad Johnson
Garrett Marshall
Oklahoma Indigent Defense System
P.O. Box 926
Norman, Ok 73070
Counsel for Defendant/Appellant
Mike Hunter
Attorney General of Oklahoma
Joshua Fanelli
Hannah White
Assistant Attorney
Generals

App.6a
313 N.E. 21st Street
Oklahoma City, Ok 73105
Counsel for State
OPINION BY: ROWLAND, V.P.J.
KUEHN, P.J.: Concur
LUMPKIN, J.: Concur in Results
LEWIS, J.: Concur
HUDSON, J.: Specially Concur

App.7a
LUMPKIN, JUDGE: CONCURRING IN RESULTS
Bound by my oath and the Federal-State relationships dictated by the U.S. Constitution, I must at
a minimum concur in the results of this opinion.
While our nation’s judicial structure requires me to
apply the majority opinion in the 5-4 decision of the
U.S. Supreme Court in McGirt v. Oklahoma, U.S.
___, 140 S. Ct. 2452 (2020), I do so reluctantly. Upon
the first reading of the majority opinion in McGirt I
initially formed the belief that it was a result in
search of an opinion to support it. Then upon reading
the dissents by Chief Justice Roberts and Justice
Thomas I was forced to conclude the Majority had
totally failed to follow the Court’s own precedents, but
had cherry picked statutes and treaties, without giving
historical context to them. The Majority then proceeded
to do what an average citizen who had been fully
informed of the law and facts as set out in the dissents
would view as an exercise of raw judicial power to
reach a decision which contravened not only the history
leading to the disestablishment of the Indian reservations in Oklahoma, but also willfully disregarded
and failed to apply the Court’s own precedents to the
issue at hand.
My quandary is one of ethics and morality. One
of the first things I was taught when I began my
service in the Marine Corps was that I had a duty to
follow lawful orders, and that same duty required
me to resist unlawful orders. Chief Justice Roberts’
scholarly and judicially penned dissent, actually
following the Court’s precedents and required analysis,
vividly reveals the failure of the majority opinion to
follow the rule of law and apply over a century of

App.8a
precedent and history, and to accept the fact that no
Indian reservations remain in the State of Oklahoma.1
The result seems to be some form of “social justice”
created out of whole cloth rather than a continuation
of the solid precedents the Court has established over
the last 100 years or more.
The question I see presented is should I blindly
follow and apply the majority opinion or do I join
1 Senator Elmer Thomas, D-Oklahoma, was a member of the
Senate Committee on Indian Affairs. After hearing the Commissioner’s speech regarding the Indian Reorganization Act
(IRA) in 1934, Senator Thomas opined as follows:
I can hardly see where it (the IRA) could operate in a
State like mine where the Indians are all scattered
out among the whites and they have no reservation,
and they could not get them into a community without
you would go and buy land and put them on it. Then
they would be surrounded very likely with thickly
populated white section with whom they would trade
and associate. I just cannot get through my mind how
this bill can possibly be made to operate in a State of
thickly-settled population. (emphasis added).
John Collier, Commissioner of Indian Affairs, Memorandum of
Explanation (regarding S. 2755), p. 145, hearing before the United
States Senate Committee on Indian Affairs, February 27, 1934.
Senator Morris Sheppard, D-Texas, also on the Senate Committee on Indian Affairs, stated in response to the Commissioner’s speech that in Oklahoma, he did not think “we could look
forward to building up huge reservations such as we have granted
to the Indians in the past.” Id. at 157. In 1940, in the Foreword
to Felix S. Cohen, Handbook of Federal Indian Law (1942),
Secretary of the Interior Harold Ickes wrote in support of the
IRA, “[t]he continued application of the allotment laws, under
which Indian wards have lost more than two-thirds of their
reservation lands, while the costs of Federal administration
of these lands have steadily mounted, must be terminated.”
(emphasis added).

App.9a
with Chief Justice Roberts and the dissenters in McGirt
and recognize “the emperor has no clothes” as to the
adherence to following the rule of law in the application of the McGirt decision?
My oath and adherence to the Federal-State relationship under the U.S. Constitution mandate that I
fulfill my duties and apply the edict of the majority
opinion in McGirt. However, I am not required to do
so blindly and without noting the flaws of the opinion
as set out in the dissents. Chief Justice Roberts and
Justice Thomas eloquently show the Majority’s mischaracterization of Congress’s actions and history with
the Indian reservations. Their dissents further demonstrate that at the time of Oklahoma Statehood in 1907,
all parties accepted the fact that Indian reservations
in the state had been disestablished and no longer
existed. I take this position to adhere to my oath as a
judge and lawyer without any disrespect to our Federal-State structure. I simply believe that when reasonable minds differ they must both be reviewing the
totality of the law and facts.

App.10a
HUDSON, J., SPECIALLY CONCURS
Today’s decision dismisses a first degree murder
conviction from the District Court of McIntosh County
based on the Supreme Court’s decision in McGirt v.
Oklahoma, 140 S. Ct. 2452 (2020). This decision is
unquestionably correct as a matter of stare decisis
based on the Indian status of Appellant and the
occurrence of the crime on the Creek Reservation.
Under McGirt, the State has no jurisdiction to prosecute
Appellant for the murder in this case. Instead,
Appellant must be prosecuted in federal court. I therefore as a matter of stare decisis fully concur in today’s
decision. Further, I maintain my previously expressed
views on the significance of McGirt, its far-reaching
impact on the criminal justice system in Oklahoma and
the need for a practical solution by Congress. See
Bosse v. State, 2021 OK CR 3, ___ P.3d ___ (Hudson,
J., Concur in Results); Hogner v. State, 2021 OK CR
4, P.3d (Hudson, J., Specially Concurs); and Krafft v.
State, No. F-2018-340 (Okl. Cr., Feb. 25, 2021) (Hudson, J., Specially Concurs) (unpublished).

App.11a

DISTRICT COURT OF MCINTOSH COUNTY,
STATE OF OKLAHOMA, JOURNAL ENTRY
OF FACTS AND CONCLUSIONS OF LAW
IN ACCORDANCE WITH ORDER REMANDING
FOR EVIDENTIARY HEARING
(SEPTEMBER 24, 2020)
IN THE DISTRICT COURT OF
MCINTOSH COUNTY, STATE OF OKLAHOMA
________________________
STATE OF OKLAHOMA,

Plaintiff,
v.
CHRISTOPHER JASON HATHCOAT,

Defendant.
________________________
Case No. CF-16-207
Court of Criminal Appeals Case No. F-2018-898
JOURNAL ENTRY OF FACTS AND CONCLUSIONS OF
LAW IN ACCORDANCE WITH ORDER REMANDING FOR
EVIDENTIARY HEARING ISSUED AUGUST 19, 2020
Now on the 23rd day of September, 2020, comes
on for evidentiary hearing for the purpose of determining the following: (a) Defendant’s Indian status
and (b) whether the crimes occurred on the Creek
Reservation. The Defendant appears in person and with
counsel, Chad Johnson and Garrett Marshall. The

App.12a
State appears by and through McIntosh County District
Attorney, Carol Iski, and assistant district attorney,
Greg Stidham. The Oklahoma Attorney General’s
Office appears by and through counsel, Joshus R.
Fanelli and Hannah K. White.
After receiving argument and evidentiary stipulations the Court hereby FINDS and ORDERS as
follows:
FINDINGS OF FACT AND
CONCLUSION OF LAW
The first issue for adjudication is the Defendant’s
status as an Indian as defined by federal law. The
Tenth Circuit’s decision in United States v. Diaz, 679
F.3d 1183 (10th Cir. 2012) articulates the test for
making such determination. As Diaz states:
To find that a person is an Indian the court
must first make factual findings that the
person has some Indian blood and, second,
that the person is recognized as an Indian
by a tribe or by the federal government.

Id. at 1187 (internal quotations omitted); see also
Goforth v. State, 1982 OK CR 48, 644 P.2d 114. Applied
to the present matter, the parties jointly stipulate in
writing the evidence will show “the [Defendant] is
one-sixteenth (1/16) degree Indian blood.” See Joint
Exhibit 1 (attached). In addition, “[t]he [Defendant]
was a registered citizen of the Cherokee Nation on
August 4, 2016, the dates of the charged offenses.”
Id. Finally, “[t]he Cherokee Nation is an Indian
Tribal Entity recognized by the federal government.”
Id. The Court accepts and attaches these stipulations
to the Court’s Findings of Facts and Conclusions of

App.13a
Law. Applying elements of Diaz to the evidentiary
stipulations in the present matter, the Court finds
the Defendant has “some Indian blood” and is also
“recognized as an Indian by a tribe and the federal
government.” For this reason, the Court finds the
Defendant is an Indian under federal law.
Having found the Defendant is an Indian under
federal law, this Court must now determine if the
crime occurred on the Creek Reservation. As McGirt
v. Oklahoma, 140 S. Ct. 2452, 207 L.Ed.2d 985 (2020)
explains “[t]he 1833 Treaty fixed borders for what
was to be a ‘permanent home to the whole Creek nation
of Indians.’’’ Id. at 2461. The parties in this matter
stipulate “[t]he charged crimes occurred within the
Creek Reservation.” For this reason, the Court adopts
the stipulation and finds the crime occurred on the
Creek Reservation.
In accordance with the directives of the Oklahoma
Court of Criminal Appeals, the court reporter shall
file an original and two certified copies of the transcript
of this hearing within (20) days. This District Court
Clerk shall transmit the record of the evidentiary
hearing, this Journal Entry of Findings of Facts and
Conclusions of Law with attachments, and the
transcript of this proceeding to the Clerk of the Court
of Criminal Appeals.
BE IT SO ORDERED
/s/ Brendon Bridges
Associate District Judge McIntosh
County State of Oklahoma

App.14a
CERTIFICATE OF MAILING
I hereby certify on the 24th day of September,
2020, I mailed a true and correct copy of the foregoing
document to the following:
Chad Johnson
Garrett Marshall
General Appeals Division
Oklahoma Indigent Defense System
PO Box 926
Norman, Oklahoma 73070
and
Joshua R. Fanelli
Hannah K. White
Oklahoma Attorney General’s Office
313 N.W. 21st Street
Oklahoma City, OK 73105
and
Carol Iski
Greg Stidham
McIntosh County District Attorney’s Office
110 1st Street
Eufaula, OK 74432
Signed: /s/ KaLee Beezley
Office of Associate District Judge
Brendon Bridges McIntosh County

App.15a
AGREED STIPULATION
(SEPTEMBER 23, 2020)
IN THE DISTRICT COURT OF
MCINTOSH COUNTY, STATE OF OKLAHOMA
________________________
CHRISTOPHER JASON HATHCOAT,

Appellant,
v.
STATE OF OKLAHOMA,

Appellee.
________________________
COCA No. F-2019-898
McIntosh County No. CF-2016-207
Following the United States Supreme Court’s decision in McGirt v. Oklahoma, 140 S. Ct. 2452 (2020),
the Oklahoma Court of Criminal Appeals remanded
Appellant’s case to this Court on August 19, 2020, for
an evidentiary hearing to determine 1) Appellant’s
status as an Indian, and 2) whether the crimes
occurred on the Creek Reservation. The parties hereby announce, and request this Court to accept, the
following stipulations:
1.

Appellant is one-sixteenth (1/16) degree Indian
blood.

2.

Appellant was a registered citizen of the
Cherokee Nation on August 4. 2016, the dates
of the charged offenses.

App.16a
3.

The Cherokee Nation is an Indian Tribal
Entity recognized by the federal government.

4.

The charged crimes occurred within the
Creek Reservation

Respectfully submitted this 23rd day of September,
2020.
/s/ Chad Johnson
Chad Johnson, No. 32432
Garrett Marshall, No. 33960
General Appeals Division
Oklahoma Indigent Defense System
PO Box 926
Norman, Oklahoma 73070
(405) 801-2727
/s/ Joshua R. Fanelli
Joshua R. Fanelli, No. 33503
Hannah K. White, No. 34192
Oklahoma Attorney General’s Office
Assistant Attorneys General
313 N.W. 21st Street
Oklahoma City, OK 73105
(405) 521-3921
/s/ Carol Iski
Carol Iski, District Attorney
McIntosh County District
Attorney’s Office
P.O. Box 127
Eufaula, Oklahoma 74432

App.17a
ORDER OF THE COURT OF CRIMINAL
“APPEALS, STATE OF OKLAHOMA,
REMANDING FOR EVIDENTIARY HEARING
(AUGUST 19, 2020)
IN THE COURT OF CRIMINAL APPEALS
OF THE STATE OF OKLAHOMA
________________________
CHRISTOPHER JASON HATHCOAT,

Appellant,
v.
STATE OF OKLAHOMA,

Appellee.
________________________
Case No. F-2019-898
Before: David B. LEWIS, President Judge.,
Dana KUEHN, Vice President Judge.,
Gary L. LUMPKIN, Judge., Scott ROWLAND, Judge.,
Robert L. HUDSON, Judge.
Appellant Christopher Jason Hathcoat was tried
by jury and convicted of First Degree Murder in the
District Court of McIntosh County, Case No. CF2016-207. In accordance with the jury’s recommendation, the Honorable James R. Pratt sentenced Hathcoat
to life imprisonment with the possibility of parole.
Hathcoat must serve 85% of his sentence before he is
eligible for parole consideration. Hathcoat appeals
his Judgment and Sentence.

App.18a
In Proposition 4 of his Brief-in-Chief, filed March 1,
2019, Hathcoat claims the District Court lacked jurisdiction to try him. Hathcoat argues that he is a citizen
of the Cherokee Nation and that his crime occurred
within the boundaries of the Creek Reservation.1 Hathcoat, in his direct appeal, relied on jurisdictional issues
addressed in Murphy v. Royal, 875 F.3d 896 (10th
Cir. 2017), which was affirmed by the United States
Supreme Court in Sharp v. Murphy, 591 U.S. ___, 140
S. Ct. 2412 (2020) for the reasons stated in McGirt v.
Oklahoma, 591 U.S. ___, 140 S. Ct. 2452 (2020).2
Hathcoat’s claim raises two separate questions:
(a) his Indian status and (b) whether the crime
occurred on the Creek Reservation. These issues
require fact-finding. We therefore REMAND this case
to the District Court of McIntosh County, for an evidentiary hearing to be held within sixty (60) days from
the date of this Order.
Recognizing the historical and specialized nature
of this remand for evidentiary hearing, we request
the Attorney General and District Attorney work in
coordination to effect uniformity and completeness in
1 Hathcoat also claims that defense counsel was ineffective for
failing to raise the issue of jurisdiction and asks the Court to
either supplement the record on appeal with documentation
bearing on the issue of jurisdiction or to order an evidentiary
hearing to develop the record with regard to his ineffective
assistance of counsel claim.
2 On July 26, 2019, we held Hathcoat’s direct appeal in abeyance
pending the resolution of the litigation in Murphy. Following
McGirt, the State asked to file a response to Hathcoat’s jurisdictional claim. In light of the present order, there is no need for
an additional response from the State at this time and that
request is DENIED.

App.19a
the hearing process. Upon Hathcoat’s presentation of
prima facie evidence as to his legal status as an Indian
and as to the location of the crime in Indian Country,
the burden ‘shifts to the State to prove it has subject
matter jurisdiction.
The hearing shall be transcribed, and the court
reporter shall file an original and two (2) certified
copies of the transcript within twenty (20) days after
the hearing is completed. The District Court shall
then make written findings of fact and conclusions of
law, to be submitted to this Court within twenty (20)
days after the filing of the transcripts in the District
Court. The District Court shall address only the
following issues:
First, Hathcoat’s status as an Indian. The District
Court must determine whether (1) Hathcoat has
some Indian blood, and (2) is recognized as an Indian
by a tribe or the federal government.3
Second, whether the crime occurred within the
boundaries of the Creek Reservation. In making this
determination the District Court should consider any
evidence the parties provide, including but not limited
to treaties, statutes, maps, and/or testimony.
The District Court Clerk shall transmit the record
of the evidentiary hearing, the District Court’s findings of fact and conclusions of law, and any other
materials made a part of the record, to the Clerk of
this Court, and counsel for Appellant, within five (5)
3 See United States v. Diaz, 679 F.3d 1183, 1187 (10th Cir. 2012);
United States v. Prentiss, 273 F.3d 1277, 1280-81 (10th Cir. 2001).
See generally Goforth v. State, 1982 OK CR 48, ¶ 6, 644 P.2d
114, 116.

App.20a
days after the District Court has filed its findings of
fact and conclusions of law. Upon receipt thereof, the
Clerk of this Court shall promptly deliver a copy of
that record to the Attorney General. A supplemental
brief, addressing only those issues pertinent to the
evidentiary hearing and limited to twenty (20) pages
in length, may be filed by either party within twenty
(20) days after the District Court’s written findings
of fact and conclusions of law are filed in this Court.
Provided however, in the event the parties agree as
to what the evidence will show with regard to the
questions presented, they may enter into a written
stipulation setting forth those facts upon which they
agree and which answer the questions presented and
provide the stipulation to the District Court. In this
event, no hearing on the questions presented is
necessary. Transmission of the record regarding the
matter, the District Court’s. findings of fact and conclusions of law and supplemental briefing shall occur
as set forth above.
IT IS FURTHER ORDERED that the Clerk of
this Court shall transmit copies of the following, with
this Order, to the District Court of McIntosh County:
Appellant’s Brief-in-Chief and Appellant’s Motion to
Supplement the Record on Appeal or, in the Alternative,
Application for Evidentiary Hearing on Sixth Amendment Claim filed March 1, 2019; and Appellee’s
Answer Brief filed July 1, 2019.
IT IS SO ORDERED.
WITNESS OUR HANDS AND THE SEAL OF
THIS COURT this 19th day of August, 2020.

App.21a
/s/ David B. Lewis
Presiding Judge
/s/ Dana Kuehn
Vice President Judge
/s/ Gary L. Lumpkin
Judge
/s/ Robert L. Hudson
Judge
/s/ Scott Rowland
Judge
ATTEST
/s/ John D. Hadden
Clerk

